No. 20-843

Su the Supreme Court of the United States

NEw YORK STATE RIFLE & PISTOL ASSOCIATION, INC., ET AL.,
Petitioners,

v.

KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY AS
SUPERINTENDENT OF NEW YORK STATE POLICE, ET AL.,
Respondents.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief for the Governor of Texas as
Amicus Curiae in Support of Petitioners contains 2512 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 20, 2021.

Aa

James P. Sullivan
Office of the Governor
P.O. Box 12428
Austin, Texas 78711
(512) 936-7236
james.sullivan @ gov.texas.gov
Counsel for Amicus Curiae

   
